                   Controls Over the Financial Activities
                     of the Internal Revenue Service
                   Oversight Board Need to Be Improved

                                   August 2005

                       Reference Number: 2005-10-135




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     August 23, 2005


      MEMORANDUM FOR CHAIRPERSON, INTERNAL REVENUE SERVICE OVERSIGHT
                     BOARD



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Controls Over the Financial Activities of the
                                    Internal Revenue Service Oversight Board Need to Be Improved
                                    (Audit # 200410028)


      This report presents the results of our review of the financial management of the
      Internal Revenue Service (IRS) Oversight Board. The overall objective of this review
      was to evaluate the extent and adequacy of controls over the budgeting of funds,
      recording of transactions, and financial reporting of the IRS Oversight Board. We also
      reviewed the IRS Oversight Board’s Fiscal Year (FY) 2004 financial transactions. This
      review was conducted as a follow-on to our recently completed audit1 of the
      effectiveness of the Oversight Board.
      The Oversight Board was created as part of a series of reforms of the IRS included in
      the IRS Restructuring and Reform Act of 1998 (RRA 98).2 The Oversight Board was
      established as an independent body responsible for providing the IRS with long-term
      guidance and direction. The operation of the Oversight Board is funded by the IRS
      based on a proposed budget submitted annually by the Oversight Board. The
      Department of the Treasury, Departmental Offices (DO), provides administrative
      support to the Oversight Board and advances it the funds necessary to meet its ongoing
      obligations. The IRS subsequently reimburses the DO for these costs quarterly.



      1
         The Oversight Board Has Achieved Much of Its Original Intent, but There Are Opportunities for Increased
      Effectiveness (Reference Number 2004-10-193, dated September 2004).
       2
         Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
      16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                             2

In summary, the Oversight Board has significant weaknesses in its financial
management controls and needs to more effectively monitor its operating funds.
Specifically, controls over the funding of Oversight Board operations, recording of
financial transactions, and reliability of financial management information need to be
improved. In addition, our review of the activity reflected in the Oversight Board’s
financial reports for FY 2004 identified a number of instances where material financial
transactions were not properly reflected. In addition, quarterly billings to the IRS for the
operation of the Oversight Board were not certified as to their accuracy by the
Chairperson, Oversight Board, as required. While the Oversight Board’s FY 2004
budget of $1.5 million is not large in comparison to the IRS’ total budgetary resources of
approximately $11 billion, controls still need to be in place to properly manage and
account for Oversight Board operations.
Oversight Board members also did not always adhere to Federal Government travel
regulations when on official business. For example, Oversight Board members received
both a no-cost meal provided by the Federal Government and a per diem cash payment
for the same meal in 36 instances in FY 2004. Federal Government travel regulations
require that travelers reduce their meals per diem whenever the Federal Government
provides meals at no cost.
Finally, in our opinion, the Oversight Board’s apparent dependence on the IRS for
approval of its annual budget has the potential to adversely affect its independence and
effectiveness. By being dependent on the IRS for approval of its annual budget, the
Oversight Board could be perceived as being in conflict with its mandate to
independently oversee the administration and management of the IRS. The RRA 98
does not specify a methodology for establishing the annual funding level of the
Oversight Board.
We recommended the Chairperson, IRS Oversight Board, develop procedures to
require the routine review of Oversight Board financial information for accuracy and the
monitoring of open aged obligations. We also recommended the Chairperson, IRS
Oversight Board, ensure all requests for reimbursement are reviewed and certified
before submission. Additionally, we recommended the Chairperson, IRS Oversight
Board, reinforce existing Federal Government travel guidelines regarding meal
reimbursement to all current members and ensure new and incoming Board members
are provided instructions on relevant Federal Government travel regulations before they
incur travel expenses. Finally, we recommended the Chairperson, IRS Oversight
Board, request that a separate line item within the Department of the Treasury budget
be established for the Oversight Board’s funding.
Management’s Response: The Chairperson, IRS Oversight Board, concurred with the
recommendations in the report. Procedures have been developed for Oversight Board
staff to conduct a monthly review of all monthly cost reports and identify misclassified
items or expected but unreported expenditures. Procedures have also already been
developed for Oversight Board staff to conduct monthly reviews of open aged
obligations. In addition, procedures have been developed for Oversight Board staff to
certify quarterly requests for reimbursement submitted to the IRS. The DO’s Travel
                                           3

Handbook has been distributed to all Board members and staff; it will be incorporated
into a Board Orientation Guide for new members. Finally, the Chairperson, IRS
Oversight Board, will discuss with the Department of the Treasury appropriate
mechanisms for funding the IRS Oversight Board to assure its independence from the
IRS. Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the Congressional committees charged with
overseeing the IRS. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
 Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                  Need to Be Improved




                                                  Table of Contents


Background ............................................................................................... Page 1
More Accurate and Detailed Management Information Would Better
Assist the Oversight Board in Managing Its Operating Funds ................... Page 3
         Recommendation 1: .........................................................................Page 4
         Recommendation 2: .........................................................................Page 5

Billings to the Internal Revenue Service for Reimbursement of
Oversight Board Activities Were Not Certified As Required ...................... Page 5
         Recommendation 3: .........................................................................Page 6

Improvements Are Needed to Ensure Board Members Adhere to
Federal Government Travel Regulations When on Official Business ........ Page 6
         Recommendation 4: .........................................................................Page 7

A Better Funding Methodology Would Help Ensure the Independence
and Effectiveness of the Oversight Board ................................................. Page 7
         Recommendation 5: .........................................................................Page 8

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 10
Appendix III – Report Distribution List ....................................................... Page 11
Appendix IV – Outcome Measures............................................................ Page 12
Appendix V – Management’s Response to the Draft Report ..................... Page 13
  Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                   Need to Be Improved

                                  On July 22, 1998, the President of the United States signed
Background
                                  into law a series of reforms for the Internal Revenue Service
                                  (IRS) called the IRS Restructuring and Reform Act of 1998
                                  (RRA 98).1 The RRA 98 was enacted to improve the IRS so
                                  it can better serve taxpayers. In addition to many changes in
                                  the IRS, the Act also called for creation of the IRS
                                  Oversight Board, an independent body responsible to
                                  provide the IRS with long-term guidance and direction. The
                                  IRS Oversight Board consists of nine members, including
                                  the Secretary (or Deputy Secretary) of the Treasury and the
                                  IRS Commissioner. The 7 other members are appointed by
                                  the President, with the advice and consent of the Senate, for
                                  5-year terms and are to be selected on the basis of their
                                  professional experience and expertise. The Oversight Board
                                  is authorized to appoint staff; as of November 2004, it had
                                  five staff members assisting in its duties, including a Staff
                                  Director and an Administrative Support Officer.
                                  The IRS Oversight Board is responsible for overseeing the
                                  IRS in its administration, management, and application of
                                  the internal revenue laws. Its specific responsibilities
                                  include:
                                      •   Reviewing and approving IRS strategic plans,
                                          including the establishment of mission, objectives,
                                          and standards of performance relative to either.
                                      •   Reviewing the IRS’ operational functions, including
                                          plans for tax systems modernization, outsourcing or
                                          managed competition, and training and education.
                                      •   Overseeing management of the IRS through
                                          recommending to the President candidates for
                                          appointment as the IRS Commissioner and, if
                                          necessary, recommending the Commissioner’s
                                          removal; reviewing the selection, evaluation, and
                                          compensation of certain senior IRS executives who
                                          have program management responsibility over
                                          significant functions; and reviewing and approving
                                          the Commissioner’s plans for any major IRS
                                          reorganization.

                                  1
                                   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                  sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                  23 U.S.C., 26 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                 Page 1
Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                 Need to Be Improved

                                    •   Overseeing the IRS’ budget through reviewing and
                                        approving the Commissioner’s budget request,
                                        submitting the budget request to the Secretary of the
                                        Treasury, and ensuring the budget request supports
                                        the IRS’ strategic plans.
                                    •   Ensuring the proper treatment of taxpayers by IRS
                                        employees.
                                The IRS Oversight Board has an annual operating budget
                                that is funded by the IRS. The Department of the Treasury,
                                Departmental Offices (DO), provides the administrative
                                support, such as the recording of financial transactions and
                                preparation of financial reports, necessary for the Oversight
                                Board to function. The DO also advances the Oversight
                                Board the funds necessary to meet its ongoing obligations.
                                The DO is subsequently reimbursed for these costs by the
                                IRS quarterly, based on an Interagency Agreement.2 The
                                Interagency Agreement specifies that the IRS will reimburse
                                the DO for all costs associated with the IRS Oversight
                                Board. Payments to the DO are made quarterly via the
                                Intra-Governmental Payment and Collection System.3 The
                                Oversight Board had an operating budget of $1.5 million in
                                Fiscal Year (FY) 2004.
                                The RRA 98 requires the IRS Oversight Board to include in
                                its annual report to the Congress information on travel
                                expenses by Board members. In FY 2003, the IRS
                                Oversight Board reported that it incurred $41,545 in travel
                                expenses for its members and staff for travel relating to
                                Board activities; however, travel expenses for FY 2004 have
                                not yet been reported.
                                This review was performed at the Beckley Finance Center in
                                Beckley, West Virginia, and the IRS Agency-Wide Shared
                                Services and IRS Oversight Board offices in
                                Washington, D.C., during the period December 2004
                                through February 2005. The audit was conducted in


                                2
                                  Interagency agreements are written agreements, entered into by two
                                Federal Government agencies, that specify the goods to be furnished or
                                the tasks to be accomplished by one agency in support of the other.
                                3
                                  This is an Online Accounting Link System, which provides a
                                standardized interagency fund transfer mechanism for Federal
                                Government Program Agencies.
                                                                                               Page 2
  Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                   Need to Be Improved

                                  accordance with Government Auditing Standards. Detailed
                                  information on our audit objective, scope, and methodology
                                  is presented in Appendix I. Major contributors to the report
                                  are listed in Appendix II.
                                  The DO provides the administrative support, such as the
More Accurate and Detailed
                                  recording of financial transactions, necessary for the
Management Information
                                  Oversight Board to function. The DO also provides the
Would Better Assist the
                                  Oversight Board with monthly Financial Status Reports for
Oversight Board in Managing
                                  use in managing its operating funds. The monthly Financial
Its Operating Funds
                                  Status Reports detail both available balances in major
                                  spending categories and budgeted amounts. Timely and
                                  reliable financial management information is critical to
                                  effective program management.
                                  Our review of the activity reflected in these Reports for
                                  FY 2004 identified a number of instances where material
                                  financial transactions were either misclassified or not
                                  properly reflected. For example:
                                      •   Communication consulting fees of approximately
                                          $86,000 for services provided to the Oversight
                                          Board in FY 2004 were not reflected as expenditures
                                          in the Financial Status Reports.
                                      •   Communication consulting service expenditures of
                                          approximately $15,000 were classified as fees paid
                                          to agents for the redemption of savings bonds.
                                      •   Outside contractor service expenditures to conduct
                                          public surveys and provide communication
                                          consulting services totaling approximately
                                          $2,300 were classified as medical services.
                                      •   Outside contractor fees of approximately $26,000 to
                                          conduct public surveys and provide communication
                                          consulting services in FY 2004 were not reflected as
                                          expenditures in the Financial Status Reports.
                                  As a result of these errors, consulting expenditures were
                                  understated by approximately 72 percent. In addition,
                                  Oversight Board member compensation of approximately
                                  $143,000 for FY 2004 is not reflected as an expenditure in
                                  the Financial Status Reports. These omissions resulted in
                                  Oversight Board salary expenditures being understated by
                                  approximately 16 percent.
                                                                                        Page 3
Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                 Need to Be Improved

                                These errors can largely be attributed to a lack of adequate
                                internal controls. For example, the Oversight Board has not
                                established any formal procedures or guidelines requiring
                                the routine review of its monthly Financial Status Reports
                                for misclassified items or significant variances between
                                expected and actual expenditures. The Oversight Board also
                                has not established any formal procedures or guidelines
                                requiring the tracking and monitoring of its open aged
                                obligations. The Oversight Board informed us that the DO
                                does not routinely provide it with information regarding
                                transactions related to open aged obligations.
                                Inaccurate or incomplete financial management information
                                impairs the ability of the Oversight Board to readily monitor
                                the availability of funds remaining for the procurement of
                                future services and compromises the ability of the Oversight
                                Board to establish a reliable baseline when estimating future
                                budget needs. In addition, the ability to timely deobligate
                                unneeded funds and use them for other purposes is
                                adversely affected by the lack of complete and reliable
                                information about expenditures. Appendix IV presents
                                details on the reliability of information outcome measure
                                resulting from the identification of these errors.
                                While the Oversight Board’s approved FY 2004 budget of
                                $1.5 million is not large in comparison to the IRS’ total
                                budgetary resources of approximately $11 billion, controls
                                still need to be in place to properly manage and account for
                                Oversight Board operations.

                                Recommendations

                                The Chairperson, IRS Oversight Board, should:
                                1. Develop procedures requiring that monthly reports
                                   reflecting Oversight Board activity be routinely
                                   reviewed for misclassified items or significant variances
                                   between expected and actual expenditures. Any
                                   discrepancies identified should be researched and
                                   resolution coordinated with the DO.
                                Management’s Response: Procedures have been developed
                                for Oversight Board staff to conduct a monthly review of all
                                monthly cost reports prepared by the Department of the
                                Treasury Office of Financial Management (OFM) and
                                                                                      Page 4
    Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                     Need to Be Improved

                                    identify misclassified items or expected but unreported
                                    expenditures. The procedure has been coordinated with the
                                    OFM to ensure it will timely support the resolution process.
                                    The Board Chairperson and Staff Director will quarterly
                                    review the status of the Board’s expenditures.
                                    2. Develop procedures, in coordination with the DO,
                                       requiring a) the ongoing preparation of management
                                       information regarding open aged obligations and b) the
                                       tracking and monitoring of these obligations.
                                    Management’s Response: Procedures have already been
                                    developed for Oversight Board staff to conduct a monthly
                                    review of open aged obligations. The procedures have been
                                    coordinated with the OFM, which has agreed to provide the
                                    Oversight Board with such a report monthly and to timely
                                    respond to Board inquiries.
                                    The DO advances the Oversight Board the funds necessary
Billings to the Internal Revenue
                                    to meet its ongoing obligations. The DO is subsequently
Service for Reimbursement of
                                    reimbursed for these costs by the IRS quarterly. The
Oversight Board Activities Were
                                    detailed terms of this reimbursement process are contained
Not Certified As Required
                                    in an Interagency Agreement between the DO and the IRS.
                                    As part of this Agreement, the Chairperson of the Oversight
                                    Board, or his or her designee, is required to certify as
                                    reasonable and necessary all costs submitted to the IRS for
                                    reimbursement. The Interagency Agreement is updated
                                    annually.
                                    The requests for reimbursement in FY 2004 that we
                                    reviewed were not certified as to their accuracy by the
                                    Chairperson of the Oversight Board, or his or her designee,
                                    nor were they reconciled to the Oversight Board’s monthly
                                    Financial Status Reports to ensure accuracy and
                                    completeness.
                                    Our review of the reimbursement requests submitted to the
                                    IRS for FY 2004-related expenditures indicated that, in
                                    general, they mirrored the activity reflected in the Oversight
                                    Board’s monthly Financial Status Reports. However, as
                                    discussed previously, these Reports contained material
                                    errors.
                                    The Oversight Board informed us that the DO prepares the
                                    reimbursement requests from the financial transactions of
                                    the Oversight Board, which it maintains on its accounting
                                                                                           Page 5
    Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                     Need to Be Improved

                                    system, and sends them directly to the IRS. Without a
                                    timely and careful review of these reimbursement requests,
                                    the Oversight Board cannot be assured that they are
                                    complete, accurate, and contain only charges related to the
                                    operation of the Oversight Board.

                                    Recommendation

                                    The Chairperson, IRS Oversight Board, should:
                                    3. Develop procedures requiring that all requests for
                                       reimbursement be forwarded to the Oversight Board for
                                       review and certification.
                                    Management’s Response: Procedures have been developed
                                    for Oversight Board staff to certify quarterly requests for
                                    reimbursement submitted to the IRS. The OFM has adopted
                                    a companion procedure to submit these requests to the Staff
                                    Director, IRS Oversight Board, prior to their submission to
                                    the IRS. The Oversight Board will reconcile each request
                                    with the financial reports for the months included in the
                                    request and, once reconciled, will so notify the IRS by
                                    memorandum.
                                    Federal Government travel regulations require that travelers
Improvements Are Needed to
                                    reduce their meals per diem whenever the Federal
Ensure Board Members Adhere
                                    Government provides meals at no cost. Additionally,
to Federal Government Travel
                                    Federal Government travel regulations specify that travelers
Regulations When on Official
                                    may receive reimbursement for actual travel expenses only
Business
                                    when necessary due to the unusual circumstances of an
                                    assignment. However, Oversight Board members did not
                                    always adhere to the regulations when performing official
                                    travel. For example:
                                        •   Oversight Board members received both a no-cost
                                            meal provided by the Federal Government and a
                                            per diem cash payment for the same meal in
                                            36 instances in FY 2004. The Staff Director, IRS
                                            Oversight Board, informed us the meals were
                                            provided in conjunction with Oversight Board
                                            meetings. The per diem payments generally ranged
                                            between $10 and $26, depending on the type of
                                            meal, and totaled approximately $485 for FY 2004.


                                                                                          Page 6
    Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                     Need to Be Improved

                                        •   A new Oversight Board member incurred lodging
                                            costs which significantly exceeded the maximum
                                            allowable costs reimbursable by the Federal
                                            Government under Federal travel guidelines. The
                                            excess expenditure was reimbursed by the Federal
                                            Government. The Oversight Board member was
                                            attending a regularly scheduled Board meeting and
                                            indicated that he was unaware of the reimbursement
                                            guidelines.
                                    These issues can be attributed to a number of factors,
                                    including unfamiliarity with the unique nature of Federal
                                    Government travel regulations and the absence of
                                    formalized communication procedures for the orientation of
                                    new Oversight Board members. Lack of consistent
                                    adherence to Federal Government travel regulations could
                                    result in disparate treatment of Federal Government
                                    travelers and inappropriate use of Federal Government
                                    funds.

                                    Recommendation

                                    The Chairperson, IRS Oversight Board, should:
                                    4. Reinforce Federal Government travel guidelines
                                       regarding meal reimbursement to all current members
                                       and ensure new and incoming Board members are
                                       provided instructions on relevant key Federal
                                       Government travel regulations before they incur travel
                                       expenses.
                                    Management’s Response: The DO’s Travel Handbook has
                                    been distributed to all Board members and staff by the
                                    Oversight Board Chairperson. With new Board members
                                    likely to be nominated shortly, the Travel Handbook will be
                                    incorporated into a Board Orientation Guide for new
                                    members.
                                    The creation of the IRS Oversight Board was part of many
A Better Funding Methodology
                                    changes in the IRS mandated by the RRA 98. The RRA 98
Would Help Ensure the
                                    specified the duties and responsibilities of the Board, as well
Independence and Effectiveness
                                    as its organizational structure, and set its size at nine
of the Oversight Board
                                    members. The Oversight Board was specifically designed
                                    to be an independent body responsible for providing the IRS
                                    with long-term guidance and direction. The operation of the
                                                                                            Page 7
Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                 Need to Be Improved

                                Oversight Board is funded by the IRS based on a proposed
                                budget submitted annually by the Board.
                                The DO provides administrative support to the Oversight
                                Board and advances it the funds necessary to meet its
                                ongoing obligations. The IRS subsequently reimburses the
                                DO for these costs quarterly, based on an Interagency
                                Agreement. The Interagency Agreement requires annual
                                approval by the IRS and specifies the maximum funding
                                level of the Oversight Board for the year.
                                Our review indicated that the process used to establish the
                                annual funding of the Oversight Board needs to be
                                improved. In our opinion, the Oversight Board’s apparent
                                dependence on the IRS for approval of its annual budget has
                                the potential to adversely affect its independence and
                                effectiveness. Specifically, the IRS could be perceived as
                                potentially having undue influence over the entity
                                established to independently oversee its administration and
                                management. The RRA 98 does not specify a methodology
                                for establishing the annual funding level of the IRS
                                Oversight Board.

                                Recommendation

                                The Chairperson, IRS Oversight Board, should:
                                5. Request that the Department of the Treasury establish a
                                   separate line item within its budget for the funding of
                                   the Oversight Board.
                                Management’s Response: The Chairperson shall discuss
                                with the Department of the Treasury appropriate
                                mechanisms for funding the IRS Oversight Board to assure
                                its independence from the IRS. The Board notes that the
                                House Appropriations Subcommittee on Transportation,
                                Treasury, and Housing and Urban Development; the
                                Judiciary; and the District of Columbia have recently
                                addressed this issue in the committee report for the FY 2006
                                appropriation bill by specifying $1.5 million for the
                                operations of the IRS Oversight Board.




                                                                                     Page 8
     Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                      Need to Be Improved

                                                                                                 Appendix I


                         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the extent and adequacy of controls over the
budgeting of funds, recording of transactions, and financial reporting of the Internal Revenue
Service (IRS) Oversight Board. We also reviewed the IRS Oversight Board’s Fiscal Year (FY)
2004 financial transactions. This review was conducted as a follow-on to our recently completed
audit1 of the effectiveness of the Oversight Board. To accomplish this objective, we:
I.       Evaluated the methodology used by the IRS Oversight Board to formulate and monitor its
         annual operating budget.
         A. Interviewed the Oversight Board Chief of Staff to determine how the annual
            operating budget was established, approved, and monitored.
         B. Evaluated the FY 2004 budget, determined whether it was reasonable in comparison
            to actual expenditures for FY 2003, and investigated line items with significant
            variances.
         C. Determined whether execution of the FY 2004 budget was effectively monitored and
            investigated any FY 2004 line item expenditures that varied significantly from the
            budgeted amounts.
         D. Analyzed the IRS Oversight Board Operational Expenditure Interagency Agreements
            for FYs 2003 and 2004.
II.      Analyzed the effectiveness of internal controls over the execution and recording of IRS
         Oversight Board financial transactions.
         A. Interviewed the Oversight Board Chief of Staff to determine procedures relating to
            the execution and recording of financial transactions.
         B. Analyzed IRS Oversight Board financial transactions for FY 2004.
III.     Evaluated compliance with Federal Government financial reporting requirements.
         A. Evaluated the methodology used to accumulate and compile financial management
            information regarding IRS Oversight Board expenditures.
         B. Determined whether the IRS Oversight Board has effective controls to ensure the
            timely deobligation of funds no longer needed.

1
 The Oversight Board Has Achieved Much of Its Original Intent, but There Are Opportunities for Increased
Effectiveness (Reference Number 2004-10-193, dated September 2004).



                                                                                                       Page 9
  Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                   Need to Be Improved

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Anthony J. Choma, Audit Manager
Joseph F. Cooney, Lead Auditor
Robert W. Beel, Senior Auditor
Thomas Dori, Senior Auditor
Rashme Sawhney, Auditor
Seth A. Siegel, Auditor




                                                                                      Page 10
 Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                  Need to Be Improved

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
United States Senate Committee on Finance
United States Senate Committee on Governmental Affairs
United States Senate Committee on Governmental Appropriations
United States House of Representatives Committee on Appropriations
United States House of Representatives Committee on Government Reform
United States House of Representatives Committee on Ways and Means
Staff Director, IRS Oversight Board




                                                                                 Page 11
    Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                     Need to Be Improved

                                                                                    Appendix IV


                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•    Reliability of Information – Potential; approximately $279,000 in expenditures (see page 3).
Methodology Used to Measure the Reported Benefit:
We found a number of errors in the Fiscal Year (FY) 2004 accounting records of the Internal
Revenue Service (IRS) Oversight Board and control weaknesses that could prevent the Oversight
Board from timely identifying transactions that are misclassified or not properly recorded. The
outcome measure recorded represents the aggregate amount of the errors we could identify,
which consists of approximately $272,000 shown in the report and an additional $7,000 in
various miscellaneous expenses. Because the IRS Oversight Board did not have effective
controls over the accuracy and reliability of information in its records at the time of our review,
we were unable to readily determine the precise amount of Oversight Board expenditures related
to its $1.5 million budget for FY 2004. We define the reliability of information as ensuring the
accuracy, validity, relevance, and integrity of data use.




                                                                                           Page 12
Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                 Need to Be Improved

                                                                          Appendix V


                  Management’s Response to the Draft Report




                                                                                Page 13
Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                 Need to Be Improved




                                                                                Page 14
Controls Over the Financial Activities of the Internal Revenue Service Oversight Board
                                 Need to Be Improved




                                                                                Page 15
